Appendix

Case: 19-50772

Document: 00515318282

Page: 1

Date Filed: 02/21/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-50772
Summary Calendar

FILED
February 21, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JOEL ARREDONDO-MORENO,
Defendant-Appellant
Appeal from the United States District Court
for the Western District of Texas
USDC No. 2:18-CR-2621-1
Before JOLLY, JONES, and SOUTHWICK, Circuit Judges.
PER CURIAM: *
Joel Arredondo-Moreno appeals the sentence imposed following his
guilty plea conviction for illegal reentry following deportation in violation
8 U.S.C. § 1326. He argues that the enhancement of his sentence pursuant to
§ 1326(b)(2), which increased his statutory maximum sentence to 20 years of
imprisonment and three years of supervised release, is unconstitutional
because of the treatment of the provision as a sentencing factor rather than as

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

1a

Case: 19-50772

Document: 00515318282

Page: 2

Date Filed: 02/21/2020

No. 19-50772
an element of a separate offense that must be proved to a jury beyond a
reasonable doubt. He concedes that this issue is foreclosed by AlmendarezTorres v. United States, 523 U.S. 224 (1998). However, he seeks to preserve
the issue for possible Supreme Court review because, he argues, subsequent
decisions indicate that the Supreme Court may reconsider its holding in
Almendarez-Torres.
In Almendarez-Torres, 523 U.S. at 239-47, the Supreme Court held that
for purposes of a statutory sentencing enhancement, a prior conviction is not a
fact that must be alleged in an indictment or found by a jury beyond a
reasonable doubt.

This court has held that subsequent Supreme Court

decisions did not overrule Almendarez-Torres. See United States v. Wallace,
759 F.3d 486, 497 (5th Cir. 2014) (considering the effect of Alleyne v. United
States, 570 U.S. 99 (2013)); United States v. Pineda-Arrellano, 492 F.3d 624,
625-26 (5th Cir. 2007) (considering the effect of Apprendi v. New Jersey, 530
U.S. 466 (2000)). Thus, Arredondo-Moreno’s argument is foreclosed.
Accordingly, the Government’s motion for summary affirmance is
GRANTED, the Government’s alternative motion for an extension of time to
file a brief is DENIED, and the judgment of the district court is AFFIRMED.

2

2a

8 U.S.C. § 1326. Reentry of removed aliens
(a) In general
Subject to subsection (b), any alien who—
(1) has been denied admission, excluded, deported, or removed
or has departed the United States while an order of exclusion, deportation, or removal is outstanding, and thereafter
(2) enters, attempts to enter, or is at any time found in, the
United States, unless (A) prior to his reembarkation at a
place outside the United States or his application for admission from foreign contiguous territory, the Attorney
General has expressly consented to such alien's reapplying
for admission; or (B) with respect to an alien previously denied admission and removed, unless such alien shall establish that he was not required to obtain such advance consent under this chapter or any prior Act,
shall be fined under Title 18, or imprisoned not more than 2
years, or both.
(b) Criminal penalties for reentry of certain removed aliens
Notwithstanding subsection (a), in the case of any alien described in such subsection-(1) whose removal was subsequent to a conviction for commission of three or more misdemeanors involving drugs, crimes
against the person, or both, or a felony (other than an aggravated felony), such alien shall be fined under Title 18,
imprisoned not more than 10 years, or both;
(2) whose removal was subsequent to a conviction for commission of an aggravated felony, such alien shall be fined under
such title, imprisoned not more than 20 years, or both;
(3) who has been excluded from the United States pursuant to
section 1225(c) of this title because the alien was excludable
under section 1182(a)(3)(B) of this title or who has been removed from the United States pursuant to the provisions of
subchapter V, and who thereafter, without the permission

3a

of the Attorney General, enters the United States, or attempts to do so, shall be fined under Title 18 and imprisoned for a period of 10 years, which sentence shall not run
concurrently with any other sentence. or
(4) who was removed from the United States pursuant to section 1231(a)(4)(B) of this title who thereafter, without the
permission of the Attorney General, enters, attempts to enter, or is at any time found in, the United States (unless the
Attorney General has expressly consented to such alien's
reentry) shall be fined under Title 18, imprisoned for not
more than 10 years, or both.
For the purposes of this subsection, the term “removal” includes any agreement in which an alien stipulates to removal
during (or not during) a criminal trial under either Federal or
State law.
(c) Reentry of alien deported prior to completion of term of imprisonment
Any alien deported pursuant to section 1252(h)(2) of this title
who enters, attempts to enter, or is at any time found in, the
United States (unless the Attorney General has expressly consented to such alien's reentry) shall be incarcerated for the remainder of the sentence of imprisonment which was pending
at the time of deportation without any reduction for parole or
supervised release. Such alien shall be subject to such other
penalties relating to the reentry of deported aliens as may be
available under this section or any other provision of law.
(d) Limitation on collateral attack on underlying deportation order
In a criminal proceeding under this section, an alien may not
challenge the validity of the deportation order described in subsection (a)(1) or subsection (b) unless the alien demonstrates
that—
(1) the alien exhausted any administrative remedies that may
have been available to seek relief against the order;

4a

(2) the deportation proceedings at which the order was issued
improperly deprived the alien of the opportunity for judicial
review; and
(3) the entry of the order was fundamentally unfair.

5a

